HHS/OIG-AUDIT--Actual Acquisition Cost of Prescription Drug Products for Brand Name Drugs (A-06-96-00030)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Pharmacy: Actual Acquisition Cost of Prescription Drug Products
for Brand Name Drugs" (A-06-96-00030)
April 10, 1997
Complete
Text of Report is available in PDF format (743 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit on the consolidated results of our
review of pharmacy acquisition costs for brand name drugs reimbursed under the
Medicaid prescription drug program. The report is in response to a request from
the Medicaid Bureau that the Office of Inspector General (OIG) perform an audit
of the use of average wholesale price (AWP) as part of the Medicaid drug reimbursement
policies. The request stated that it would be useful for the OIG to document the
size of the difference between AWP and actual invoice prices paid by retail pharmacies
to purchase drugs. Most States use AWP, minus a percentage discount which varies
by State, as a basis for reimbursing pharmacies for drug prescriptions. Although
this discount is most commonly about 10 percent nationally, it has been recognized
as not being a sufficient discount to ensure that the reasonable price is paid
for drugs. Therefore, the objective of our review was to develop an estimate of
the discount below AWP at which pharmacies purchase brand name drugs. Estimates
were also developed for the discount below AWP at which pharmacies purchase generic
drugs and those results will be summarized in a separate report.
Through use of statistical sampling, we obtained pricing information from 315
pharmacies in 11 States and obtained 18,973 invoice prices for brand name drug
products. We estimated that actual acquisition cost was a national average of 18.3
percent below AWP. This estimate combined the results for four categories of pharmacies
including rural-chain, rural-independent, urban-chain, and urban-independent and
excluded the results obtained from non-traditional pharmacies. Using the results
of our review, we calculate that as much as $225 million could have been saved
for 100 drugs with the greatest amount of Medicaid reimbursements in Calendar Year
1994, if reimbursement had been based on the findings of this report.
We are recommending that the Health Care Financing Administration (HCFA) work
to ensure that States reimburse the ingredient portion of Medicaid drugs in a manner
more consistent with the findings of this report. Additionally, we are recommending
that HCFA study any of the other factors (for example dispensing fees) which they
believe could significantly impact pharmacy reimbursement. We remain available
to assist HCFA in conducting other studies that will aid in the implementation
of these recommendations. The HCFA Administrator responded to our draft report
in a memorandum dated March 18, 1997. In that memorandum, HCFA agreed with the
findings and recommendations of this report.